                                                                           \ i
                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE. OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 111060023                                                                   Page 1 of 1



         We received notification from NSF's Division ofInformation Services (DIS) that the NSF
         computer system had been attacked by malicious malware.DIS was made aware of the intrusion
         by an individual 1 unrelated to NSF. DIS activated the Computer Incident Response Team,
         identified the infected machines, removed them from the network, and took the proper steps to
         ensure the computers were clear of malware before being returned to use. DIS has continued to
         monitor the system and has identified no additional machines as being infected. This attack is
         similar to other attacks throughout the government and the investigation is being conducted by
       . US-CERT.

         No further investigation is necessary accordingly this case is closed




NSF OIG Fonn 2 (11/02)
